<html>
<title> - HEALTHY AGING AND NUTRITION: THE SCIENCE OF LIVING LONGER</title>
<body><pre>[Senate Hearing 107-768]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-768
 
                      HEALTHY AGING AND NUTRITION:
                      THE SCIENCE OF LIVING LONGER
=======================================================================





                             FIELD HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            BATON ROUGE, LA

                               __________

                            AUGUST 15, 2002

                               __________

                           Serial No. 107-32

         Printed for the use of the Special Committee on Aging









                           U.S. GOVERNMENT PRINTING OFFICE
82-918                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           JOHN ENSIGN, Nevada
DEBBIE STABENOW, Michigan            CHUCK HAGEL, Nebraska
JEAN CARNAHAN, Missouri              GORDON SMITH, Oregon
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director



                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator John Breaux.........................     1

                           Panel of Witnesses

William H. Patrick, Jr., Ph.D., Boyd Professor of Oceanography 
  and Coastal Sciences, Wetland Biogeochemistry Institute, 
  Louisiana State University, Baton Rouge, LA....................     3
Robert N. Butler, M.D., President and Chief Executive Officer, 
  International Longevity Center-USA, New York, NY...............     8
Pamela Starke-Reed, Ph.D., Deputy Director, National Institutes 
  of Health, Division of Nutrition Research Coordination, 
  Bethesda, MD...................................................    16
Claude Bouchard, Ph.D., Executive Director, Pennington Biomedical 
  Research Center, Baton Rouge, LA...............................    30

                                Appendix

Informational pamplets from International Longevity Center.......    49
    Prescription for Longevity...................................    49
    Is there an Anti-Aging Medicine..............................    76
    Biomakers of Aging From Primitive Organisms to Man...........   138
    Achieving and Maintaining Cognitive Vitality with Aging......   166
    Maintaining Healty Lifestyles a Lifetime of Choices..........   192

                                 (iii)














        HEALTHY AGING & NUTRITION: THE SCIENCE OF LIVING LONGER

                              ----------                              


                       THURSDAY, AUGUST 15, 2002

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Baton Rouge, LA
    The committee met, pursuant to notice, at 10 a.m., at the 
Pennington Biomedical Center, Administration Building 
Auditorium, Baton Rouge, LA, Honorable John Breaux (chairman of 
the committee) presiding.

       OPENING STATEMENT OF SENATOR JOHN BREAUX, CHAIRMAN

    The Chairman. Our Senate Aging Committee will please come 
to order, and good morning everyone. Thank you all for being 
with us and in attendance. We want to thank everyone at the 
Pennington Center for their cooperation in helping us with this 
Senate Aging Committee hearing today here at the Pennington 
Center, and thank all of our good friends at LSU for their 
good, strong support, and we certainly appreciate your allowing 
us to be here and with your colleagues at the university as 
well. We are very delighted.
    I serve as Chairman of the Senate Aging Committee in 
Washington, and this hearing really is to allow some of our 
witnesses to talk about some of the good things that are 
happening in the area of aging and also to talk about some of 
the research that is going on and will continue to be going on 
in this particular area. I want to particularly thank two of 
our guests who have traveled from Washington and also New York 
to be with us today. Dr. Pamela Starke-Reed who is with the 
National Institutes of Health, thank you very much for being 
with us, and my good friend, Dr. Robert Butler, who has worked 
with our Aging Committee in so many areas. He is President and 
CEO of the International Longevity Center in New York City. We 
thank both of them for traveling to be with us.
    Today's hearing I would point out is not science fiction. 
Our distinguished guests will be discussing some of the 
current, cutting-edge research which ultimately may add a 
significant number of years to the human life span. While this 
topic is indeed very interesting, it's also very exciting, it 
should be stated also that the increase in life span that we 
all hope for in long term is not quite yet available. Last 
September our Special Committee on Aging held investigative 
hearings to expose fraudulent health care claims being made by 
people who are nothing more than con men who are trying to sell 
dietary supplements which they would offer as the key to 
longevity. Claims that diseases can be cured and the aging 
process stopped in its tracks by simply taking a little pill 
have always been well received by people who are looking for 
that type of cure. Fortunately as we know, when something 
sounds too good to be true, it generally is too good to be true 
and is probably false. As of today there is still no scientific 
evidence that simply dietary supplements alone will slow the 
aging process or increase longevity. However, we can keep our 
fingers crossed and we can hope that the work being done by Dr. 
Butler, at the National Institutes of Health and the Pennington 
Biomedical Research Center will be very helpful and very useful 
and produce results in the near future.
    The Pennington Biomedical Research Center was recently 
recognized by the NIH as an outstanding research center by 
being awarded over $12 million in grant funds to study the 
possible benefits of long-term reduction of calories on aging. 
For many years now, scientists have known that animals on a 
high-quality, nutrient-rich, low calorie diet live 
significantly longer and healthier lives. This phenomenon has 
been demonstrated in worms, monkeys and just about everything 
in between. Pennington has been chosen along with two other 
outstanding research institutions to determine if this effect 
will occur in humans as well. During the next 2 years, human 
subjects will be placed on a calorie restricted diet and their 
risk of heart disease, hypertension, diabetes and other medical 
problems will be closely monitored.
    Now, I know many in our audience here in Louisiana must be 
thinking how are people in Louisiana going to go on a low-
calorie diet with all of the temptations that we have in our 
area. It is not very likely most would think. However, if the 
diet research proves to have the same beneficial effects in 
humans that it does in animals, additional research will be 
conducted to determine how this works at the molecular level. 
Here is where we start hoping for that miracle pill again. If 
researchers can determine how caloric restriction works, it is 
possible that they would be able to duplicate it synthetically. 
Remember, however, that this is not a reality yet. If by the 
end of the year you see a supplement claiming that it contains 
all the herbs necessary to duplicate caloric restrictions, run 
the other way. It is probably not true.
    I look forward to learning more about this incredibly 
interesting topic from our panelists, and again I want to thank 
the Pennington Biomedical Research Center and all of the 
associates at the university for cooperating in this effort. I 
truly believe that the Pennington Biomedical Research Center 
can be one of the world's leading institutions in this effort. 
As Chairman of the Senate Aging Committee, I want to do 
everything in my power to see that that wish becomes a reality.
    The panel of witnesses, as I mentioned, that we have here 
today are truly distinguished experts that I am very excited to 
hear from. Their testimony will be made part of our 
Congressional Record. First we want to hear from Dr. William 
Patrick. Dr. Patrick will discuss how nutrition and physical 
activity has positively impacted his life as he has grown 
older. He is still an active research scientist and is 
currently the No. 2 ranked tennis player in the State in his 
age group and was a member of the silver medal winning 
basketball team at the most recent senior games. He is a person 
who I have a great deal of admiration for. My goal in life is 
to win the national 100 and over tennis championship by being 
the only entry. [Laughter.]
    But perhaps if research proves effective, there will be 
many more entrants at that time. So first we will hear from Dr. 
Patrick.
    Dr. Patrick, we are glad to have you with us.

STATEMENT OF WILLIAM H. PATRICK, JR., PH.D., BOYD PROFESSOR OF 
  OCEANOGRAPHY AND COASTAL SCIENCES, WETLAND BIOGEOCHEMISTRY 
     INSTITUTE, LOUISIANA STATE UNIVERSITY, BATON ROUGE, LA

    Dr. Patrick. Thank you, Senator Breaux, ladies and 
gentleman. I am a Boyd Professor of Oceanography and Coastal 
Sciences here at Louisiana State University. I have been asked 
by the Pennington Center to discuss some of the aspects of 
healthy aging from a layman's point of view. I am not a 
professional in this area, and so I am sort of here as a guest. 
I was probably asked to speak to this committee because I am 
the senior active member of the whole LSU system in terms of 
years of service. There is no one left in the system who was 
here when I was appointed an assistant professor on July 1, 
1953. Although my wife, Ruth, over here does not like for me to 
tell my age, I am 76 years old, so I have established longevity 
credentials here. Another possible reason I was asked to speak 
to you is because I am still carrying on a full program of 
scientific research and teaching.
    I plan to use my time today to discuss what I think are 
some of the important aspects of healthy aging, and try to 
illustrate them with my own experience.
    Of course, one of the most important requirements for 
healthy aging is to have good genes. A MacArthur Foundation 
study showed that about one third of the aging process is 
controlled by genetics. I was fortunate to have chosen good 
parents. This leaves two thirds of the aging process due to 
other factors, all of which are under the control of the 
individual. These other factors that contribute to healthy 
aging, according to the MacArthur Foundation report, are good 
nutrition, regular exercise, stimulating mental activities, and 
a sense of community.
    Good nutrition is an ever-present concern in my family 
since I have been married for a long time to Dr. Ruth Patrick, 
a specialist in human nutrition and the recently retired Chief 
of the Pennington Nutrition Education Program. Of course, I do 
not faithfully follow good nutrition practices all the time, 
but I am certainly aware of it when I do not. In addition to a 
good balance of nutrients in the diet, effective weight control 
is also important, and although I owe my adequate weight 
largely to my genetic makeup, I once had to limit my food 
intake to bring my weight down to a favorable level.
    There is no doubt that regular exercise contributes greatly 
to both the physical and mental aspects of healthy aging. Early 
in my scientific career I used extensive field work to 
supplement sports to maintain a healthy body, and I still do 
considerable field work in many parts of the world as the 
attached photographs taken from a coastal swamp last July 
shows. I do not know if you can--if you had it close up, you 
could see the sweat and mud on this photograph here. This 
appeared in a German scientific publication as part of a 
cooperative project with a German research institute. In recent 
decades, I have still supplemented field work with sports to 
maintain body vigor. As the Senator mentioned, I play singles 
tennis and last year was No. 2 in the State Senior Olympics in 
my age bracket. This year I was one year older and new people 
were coming in, so I fell to three, but I do not know where I 
will be next year. I also play basketball, and because I have 
some good teammates, last year our team won our age bracket's 
National Senior Olympics silver medal.
    Responding to medical needs is an absolutely essential part 
of healthy aging, and we all appreciate Senator Breaux's 
efforts in this direction. Taking advantage of the high-quality 
medical support available in this country will add both time 
and quality to an aging person's life. My life would certainly 
not have its current quality without the benefits of hernia 
surgery, cataract surgery, retina reattachment, arthroscopic 
knee surgery, dental implants and small doses of blood 
pressure-lowering and cholesterol-lowering medications.
    Engaging in mentally stimulating activities is probably the 
most important component of my quest for healthy aging. All of 
us who want to extend their careers beyond ages 65 or 70 owe a 
debt of gratitude to one of Senator Breaux's earlier 
colleagues, Claude Pepper of Florida, who championed 
legislation that eliminated a mandatory retirement age. Even at 
this stage of my career at age 76, I am the principal 
investigator of five outside-funded research projects, ranging 
from basic scientific environmental chemistry studies supported 
by the National Science Foundation to applied studies of the 
effect of sea level rise on coastal Louisiana ecosystems. This 
fall I will be teaching a new course that I developed on the 
effect of global climate change on the stability of coastal 
wetlands. Over a quarter century ago I established the Wetland 
Biogeochemistry Institute at LSU where my colleagues and I are 
largely funded by grant and contract funds and which has 
produced over 600 scientific papers and reports covering work 
done largely in Louisiana but also in many other states and 
quite a few foreign countries. I still have the same enthusiasm 
for research that I did a half century ago. In fact, there have 
been two periods when I felt under considerable pressure to 
succeed, the first when I started out and was trying to 
establish myself as a research scientist, and now when I feel 
the pressure to justify my staying on beyond the normal 
retirement age.
    The MacArthur study found that a sense of community or 
belonging is important in maintaining a healthy outlook into 
old age. An active person is involved in a number of 
communities, and my interaction with several communities brings 
a great deal of satisfaction. Without doubt the most important 
is my family consisting of my wife, four children and their 
spouses and twelve grandchildren. To celebrate her recent 
retirement, my wife sponsored all 22 of us for a week at Vail, 
CO, this summer, which did catch me up considerably with 
community involvement.
    In conclusion, I would like to reiterate that the recipe 
for healthy aging is to build onto a favorable genetic heritage 
with good nutrition, effective exercise, good medical care, 
stimulating mental activities, and a sense of community. Thank 
you.
    [The prepared statement of Mr. Patrick follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Dr. Patrick. That was 
well stated, and we are delighted to have that in the record. 
Next we are going to hear, as I indicated earlier, from Dr. 
Robert Butler who is the President and Chief Executive Officer 
of the International Longevity Center in the USA, and he is a 
very special friend of the Special Committee on Aging.
    Dr. Butler, glad to have you.

   STATEMENT OF ROBERT N. BUTLER, M.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, INTERNATIONAL LONGEVITY CENTER-USA, NEW 
                            YORK, NY

    Dr. Butler. Thank you very much, Senator Breaux. It is a 
privilege to be here in Louisiana and to say good morning to 
everyone, and thank you for this opportunity to speak to the 
science associated with healthy aging and nutrition. In the 
last century, as you know, we gained an extraordinary 30 
additional years of life, and not only added life but 
fortunately increased quality of life. There were declining 
disability rates. My new friend on my right I think is a 
wonderful illustration of that.
    I would like to submit for the record my comprehensive 
statement but to speak just briefly from it and to say that the 
International Longevity Center in New York--we do have centers 
also in Paris, London, Tokyo and Santo Domingo--is interested 
in helping individuals and societies prepare for this 
extraordinary increase in longevity and population aging but to 
do so in positive and productive ways. Therefore, we do focus 
upon healthy and productive aging. We are particularly 
interested in maintaining and extending and promoting good 
health habits, advancing biomedical research and in combating 
unsubstantiated claims with respect to so-called anti-aging 
medicine.
    I was much impressed to see the Pennington Biomedical 
Research Center receive such a wonderful grant in support for 
its studies of nutrition and aging, and that contrasts in my 
mind so much from the claims unsubstantiated by the anti-aging 
industry which can be so misleading because it is not based 
upon scientific validation and well-established measurements. 
This does become serious  from my  earlier  experience  in 
establishing  the National Institute on Aging, we found that 
some of those who made such unsubstantiated claims actually 
reduced the amount of support that Congress in its wisdom 
wanted to give us because Members thought an awful lot of it 
was foolishness.
    Now, the concept of caloric restriction goes back 70 years 
to a remarkable Cornell scientist named Clive McKay who gave 
undernutrition, not malnutrition, to rodents and found that by 
reducing their intake by some 30 percent he was able to extend 
their lives by about 30 percent. There have been now many 
studies on many different species to demonstrate this. Since 
the 1980's the National Institute on Aging has been supporting 
studies within the laboratories of NIH in Poolseville, MD, and 
at the University of Wisconsin-Madison on squirrel and rhesus 
monkeys, and the results at the moment suggest that the animals 
appear to be younger and that certain biological findings seem 
to be distinctive, lower blood levels of insulin, lower body 
temperature and the slower decline of a particular hormone 
called dehydroepiandrosterone, or DHEA for short.
    Now, it does not seem possible, as already suggested this 
morning, especially with the wonderful cuisine in this great 
State, that people will reduce their caloric intake by 30 or 40 
percent. But as already mentioned, if we can secure the 
underlying mechanism, why it is that caloric restriction has 
its effect, we might be able to create mimetics, that means 
agents that would mimick the effects of caloric restriction, 
you will be hearing some of the work being done here and also 
some of the work of Susan Roberts at Tufts University that will 
give us further understanding of the underlying mechanism of 
caloric restriction. Now, it is very important to carry out the 
best of science as I have described, and I think a very good 
example of that was the recent, surprising perhaps and 
certainly in many ways painful findings of the Women's Health 
Initiative at the National Institutes of Health. For a long 
time we had depended upon the Boston Nurses Study for 
information related to the appropriateness of hormone 
replacement therapy. In retrospect it appears that the health 
habits of the nurses in that study helped contribute to a 
misunderstanding and over hopefulness with respect to the 
concept that hormone replacement therapy would be preventative 
of heart disease. Having definitive randomized clinical trials 
and the best scientific methodology has unfortunately 
demonstrated that such hormone replacement therapy not only 
does not reduce heart disease but may even be a risk.
    Similar things have happened that have led to the evolution 
of so-called anti-aging medicine. A very respectable scientist, 
Daniel Rudman, at the University of Wisconsin-Milwaukee, for 
example, after only a 6-month study found results or increasing 
muscle mass, decreasing fat and greater elasticity of the skin 
using human growth hormone. So it is not unreasonable to think 
this worthy of investigation, and indeed it is. But 
unfortunately such investigations have not yet been completed, 
and yet this hormone is being widely touted and used in so-
called anti-aging medicine.
    Now, just a matter of weeks ago a study appeared in The 
Lancet magazine by Swerdlow and others identifying individuals 
who had been treated with human growth hormone between 1959 and 
1985 for ``dwarfism'' and finding that they had an increased 
incidence of overall cancer mortality and a greater incidence 
specifically of colorectal cancer and of Hodgkins disease. A 
warning sign, I think. It is not definitive yet. The point is 
that we have to undertake critical studies when it comes to 
dietary supplements, hormones, herbals or any other putative 
agent said to reduce, reverse or stop aging. We do not have 
such information at this time.
    Now, some of it has been deeply wedded to the development 
of geriatric medicine; that is, the proper, humane, effective, 
holistic care of older persons. So it is distressing to me to 
see the term ``anti-aging'' medicine because aging in many 
respects can be viewed as a normative process, and we need to 
differentiate age-related diseases which are the proper purview 
of those of us who are deeply interested in developing full 
scale better treatment of older people.
    In closing let me also tell you briefly about certain 
workshops which we hold, modified NIH-type consensus workshops. 
We bring together some of the finest scientists in the country 
to address a particularly critical topic, and we put them to 
work for 4 days. We ask them to meet the four following 
charges: What do we really know about this particular topic 
such as anti-aging medicine? Where we do not know, what is the 
research agenda that should be developed to help us answer the 
unanswered questions? Third, what can we responsibly tell the 
public? Finally, are there implications of a policy character 
for business, government or foundations? So I would like to 
present to you, Senator Breaux, some of the workshop results, 
one on the biomarkers of aging which are means we do not yet 
possess to accurately evaluate alleged anti-aging agents, one 
on maintaining healthy lifestyles and a few others which I 
think would be of use to the country. We do make them available 
on our own website, and they are also available in print 
versions.
    Let me conclude by saying it is an honor and pleasure to be 
here, and I hope that the kind of research being done by 
Pennington and by others supported by the great National 
Institutes of Health can help us to lead an increasing high 
quality as well as a longer life. Thank you very much.
    [The prepared statement of Dr. Butler follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Dr. Butler, for a very 
concise and very informative statement, and thank you for your 
participation. Next as I indicated, we will hear from Dr. 
Pamela Starke-Reed. She is the Deputy Director of the National 
Institutes of Health, Division of Nutrition Research 
Coordination. Before that she was the Program Director of the 
Biology of Aging Program at the National Institute of Aging.
    We are delighted to have you with us.

 STATEMENT  OF  PAMELA  STARKE-REED,  PH.D., DEPUTY DIRECTOR, 
 NATIONAL INSTITUTES OF HEALTH, DIVISION OF NUTRITION RESEARCH 
                   COORDINATION, BETHESDA, MD

    Dr. Starke-Reed. Thank you. Thank you for the opportunity 
to appear before you today representing the National Institutes 
of Health, Division of Nutrition Research Coordination. I would 
also like to thank you for the challenge of having me summarize 
nutrition and aging research across the Federal Government in 5 
to 7 minutes.
    The Chairman. There is flexibility.
    Dr. Starke-Reed. So, therefore, this testimony will include 
a brief overview of the Federal Government's efforts in this 
area.
    Today, approximately 13 percent of Americans are over 65. 
By the year 2030, the number of individuals age 65 and older 
will likely double--reaching 70.3 million or 20 percent of the 
total population. Of great concern is the explosive increase in 
numbers anticipated among those most at risk of disease and 
disability--people age 85 and older. Their ranks are expected 
to grow from 4.3 million in 2000 to at least 19.4 million in 
2050.
    With a rapidly aging population, it is critically important 
to identify ways to maximize the span of good health and 
thereby improve the quality of life of older people. 
Nutritional factors hold great promise for realizing this goal. 
The Federal research efforts in this area of nutrition 
recognize the need to combine physical activity and diet. I 
have included some examples of these in the written testimony 
such as the diabetes prevention program, and the details are in 
the writeup.
    Dr. Butler has already discussed with you some of the 
background of caloric restriction, so I am not going to repeat 
that here. But what I would like to talk about is what NIA has 
been doing, the National Institute on Aging, has been doing 
recently. In an effort to further elucidate the role of caloric 
restriction in extending healthy lifespan in humans, in March 
1999, the National Institute on Aging and the National 
Institute of Diabetes, Digestive and Kidney Disease cosponsored 
a meeting of the Caloric Restriction Implications Advisory 
Group. In October 2000, based on the scientific recommendations 
from this group, the NIA and the NIDDK issued research 
solicitations for exploratory studies of sustained caloric 
restriction in non-obese persons. Three sites were awarded a 
research grant: Tufts University in Boston, Washington 
University at St. Louis and Pennington Biomedical Research 
Center right here. Collectively, the three projects are known 
as CALERIE, which stand for Comprehensive Assessment of Long- 
Term Effects of Reducing Intake of Energy. Government needs to 
always confuse us with cute little sayings. Briefly, CALERIE 
projects involve exploratory, controlled human intervention 
studies on the effects of caloric restriction interventions on 
physiology, body composition and risk factors for age-related 
disease in non-obese persons. The primary goals of the project 
are to gain knowledge about the effects in humans of sustained 
caloric restriction on physiology, metabolism, body 
composition, risk factors for age-related pathologies, 
progression of age-related changes and the potential adverse 
effects and to gain knowledge of similarities, differences and 
interactions between the effects of caloric restriction and 
physical activity on previous outcomes when employed in 
interventions to prevent weight gain. The endpoints of CALERIE 
studies including energy intake and expenditure, physical 
activity, body composition, endocrine responses, insulin 
glucose metabolism, cardiovascular function, bone density, 
immune function, quality of life, and the potential adverse 
effects of caloric restriction. The study populations of 
CALERIE projects are non-obese adults with a likely age range 
of 25 to 60 years. Expected duration of the CALERIE project is 
7 years, and it is about to begin the Phase I, or the pilot 
portion, of the study which is expected to last two years, and 
I believe you will be hearing a lot more about this from Dr. 
Bouchard.
    Another area of very critical research which the NIA is 
very interested in right now is the use of dietary supplements. 
The use of dietary supplements has increased dramatically as 
the knowledge has increased about the role of nutrient and 
other bioactive components of food in our health. Although much 
of the information about the diet and health connection that 
has driven this trend is related to the reduction of chronic 
disease in adults, there is belief in the prophylactic use of 
these substances has been extended to consumers throughout the 
life span. Dietary supplements encompass a wide range of 
products. They include vitamins, minerals, amino acid, herbs 
and other botanicals. They also include dietary substances used 
to supplement the diet by increasing the total dietary intake.
    The amount of scientific data available on the safety and 
efficacy of dietary supplements varies enormously ranging from 
folklore to fact. For some supplements recommended levels for 
the elderly have been established through extensive research 
and published, but for others, serious negative health 
consequences can occur. Findings from the CDC's third National 
Health and Nutrition Examination Survey suggests that 40 
percent of the Americans use dietary supplements, and 
approximately 56 percent of middle-aged and older adults 
consume at least one supplement on a regular basis.
    The problems surrounding the use of dietary supplements 
include adverse events, interactions with prescription drugs 
and/or over-the-counter medications, interactions with medical 
conditions, contamination of the preparations, mislabeling and 
high cost. Of particular concern for the elderly is the issue 
of interactions of dietary supplements and prescription 
medication because the elderly take more prescription drugs 
than any other age group. For example, the effects of 
anticoagulant medications commonly taken by the elderly may be 
adversely affected by coenzyme Q10, gingko biloba, garlic, 
ginseng, glucosamine and St. John's Wort. Another major issue 
is the high cost of many dietary supplements. The elderly are 
often living on modest fixed incomes, and paying for 
unnecessary or potentially harmful supplements may present an 
economic hardship.
    But on the other hand, there are significant benefits 
associated with the use of certain vitamin and mineral 
supplements. I have given examples of these in the written 
testimony, but I would like to  mention  one. There  is  
increasing  clinical  evidence  that  the B vitamins such as 
folic acid, B6 and B12 play a role in preventing blood vessel 
disease and maintaining normal cognitive function. Some  
exciting  recent  work has  examined  the role  of folic  acid 
supplementation in protecting the brain's aging and possibly 
preventing Alzheimer's disease, Parkinson's disease and other 
neurodegenerative disorders. In a new study, investigators fed 
genetically engineered mice to develop the plaques that we 
normally see in Alzheimer's brains. They fed them a diet that 
included normal amounts of folate, and a second group was fed a 
diet deficient in this vitamin. The investigators found a 
decreased number of neurons in one region of the hippo-campus 
in mice fed the deficient diet. In transgenic mice fed the 
deficient diet, nerve cells of hippo-campus exhibited damage to 
their DNA. Such damage was not seen in the mice fed adequate 
amounts of folate.
    In another experiment the investigators looked at the 
effect of a different area of the brain with folate sufficient 
in folic and deficient diets. Basically what they found was the 
same thing. In the area of the substantial nigra, which is the 
area affected during Parkinson's disease, they saw that the 
folic acid sufficient animals did not show the same damage that 
the folic acid deficient animals showed. In the subsequent 
experiments in cell culture, they have suggested that the folic 
acid deficiency may compromise a neuron's ability to repair its 
DNA successfully. Based on this research, consuming adequate 
amounts of folate either in the diet or by supplementation 
could be beneficial to an aging brain and could help protect it 
against Alzheimer's disease, Parkinson's disease and other 
neurodegenerative diseases. However, it should be noted that 
currently available data, although suggestive, do not establish 
the role  of folic  acid in  susceptibility  to 
neurodegenerative  diseases. Definitive determination of 
whether folic acid plays a role in Alzheimer's disease or 
Parkinson's disease will require a completion of controlled 
clinical trials.
    In order to further investigate the role of supplements in 
preventing or delaying age-associated diseases, the NIA, in 
accommodation with the NIH Office of Dietary Supplements, will 
convene a 2-day conference in January 2003 to present current 
data and research about dietary supplement use in the elderly 
in both the United States and in the international populations. 
The goals of this conference are to develop a focused research 
program in this area.
    Mr. Chairman and Members of the Committee, I thank you 
again for inviting me to review aging and nutrition issues and 
to highlight some exciting research that is ongoing. I would be 
happy to answer any questions.
    [The prepared statement of Dr. Starke-Reed follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    
    The Chairman. Thank you very much Dr. Starke-Reed for that 
testimony. It was interesting that while she was talking about 
all the supplements I was holding my Centrum Silver and my 
Calcitrate that I was trying to take while she was testifying. 
I might reconsider perhaps the benefits of that. [Laughter.]
    Thank you very much. Next we will hear from our own Dr. 
Claude Bouchard, of course, who is the Executive Director of 
Pennington Biomedical Research Center, and who will tell us and 
the Committee for the record about some of the work that you 
are doing right here in Louisiana.
    Mr. Bouchard. Before I do that, let me give you a copy of 
my slides so that you will not have to do any body contortions.
    The Chairman. I will move. Thank you.

 STATEMENT  OF  CLAUDE  BOUCHARD,  PH.D.,  EXECUTIVE DIRECTOR, 
     PENNINGTON BIOMEDICAL RESEARCH CENTER, BATON ROUGE, LA

    Mr. Bouchard. Thank you, Mr. Chairman. We at the Pennington 
Center, a campus of the Louisiana State University System, are 
particularly honored to welcome you today. We are pleased to 
have been selected by the Senate Special Committee on Aging as 
the site for the hearing on the science associated with healthy 
aging and nutrition.
    By the year 2020, there will be an estimated 10 million 
Americans above the age of 85. This reflects a steady increase 
in life expectancy. Forty-five percent of people above the age 
of 85 need some assistance with one or more basic activities of 
daily living. Today the common life expectancy for males and 
females is 76 years, and it will be almost 80 years by 2020. 
Healthy aging depends on a multitude of factors. They are 
genetic defects having a strong impact on the risk of disease 
often causing premature death. For instance, the carriers of a 
severe deficiency in the low-density lipoprotein receptor gene, 
if untreated, will die around 30 to 35 years of age. However, 
not all genetic differences exert such a strong impact on 
health. Most of the time these genetic differences are subtle 
and cause only a predisposition to the risk of disease or 
untimely death. We also know that such subtle differences play 
a significant role in longevity. Twin studies have produced 
convincing results in this regard, and the fact that old age 
nonagenarians and centenarians aggregate in families is also 
evidence for a role of human genetic variation in longevity.
    Although biological inheritance is of great importance, the 
environment in which a person lives, particularly his or her 
lifestyle within that environment, exerts strong effects as 
well. For example, someone may have a predisposition to become 
diabetic but because he or she has a prudent diet, a physically 
active lifestyle and a healthy body weight, the disease may 
never manifest itself. A similar line of reasoning applies to 
hypertension, heart disease, osteoporosis and some types of 
cancer.
    Aging is associated with the loss of physical and/or mental 
attributes. The central question is whether healthy nutritional 
habits can prevent the decline in functions commonly seen with 
aging. The loss of skeletal muscle mass and strength and bone 
mass is associated with low energy and protein intake. Vitamin 
D intake also seems to play a role. Decreases in skeletal 
muscle and bone mineral mass are associated with frailty and 
increased risks of falls and fractures. This is significant 
since almost one quarter of people 65 years of age and older 
are considered to be physically frail. After 85, one person in 
two falls into this category.
    One of the strongest hypotheses regarding the decline in 
cognitive function is that oxidative stress is a risk factor. 
This is supported by studies indicating that levels of intake 
of antioxidants such as vitamin E, vitamin C, folate, iron and 
other nutrients are correlated with higher cognitive 
performance and apparent prevention of cognitive decline with 
age.
    The Recommended Dietary Allowances for the elderly have 
typically suggested a decrease in total energy intake compared 
to young  and  middle-aged  adults.  However,  because of  
metabolic differences commonly associated with age, supplements 
of calcium, vitamin D, vitamin B12, and others are recommended. 
Hence, the paradox.
    Even though the prevalence of obesity tends to decline 
after 65 years, its frequency remains high. This is an 
important issue since obesity is a risk factor for several 
common chronic diseases, several of which are quite prevalent 
in the elderly population.
    We would like to emphasize that there are significant 
interactions and synergy between nutrition and levels of 
physical activity. Physically active people typically consume 
more food but are more frequently normal weight than sedentary 
people. The extra food consumed provides a safety buffer 
against nutritional deficiency. Nutrition can also interact 
with medication, and this is potentially of greater 
significance in the elderly than in young and middle-aged 
adults.
    A word about the Pennington Center. The mission of the 
Pennington Center is to promote healthier lives through 
research and education  in nutrition  and  preventive  
medicine. The  Center  was established through Doc Pennington's 
gift of $125 million to Louisiana State University. With the 
new buildings currently under construction, the Center will 
enjoy the use of about 500,000 square feet of research space by 
mid next year. Today the Center has 70 faculty scientists and 
employs 400 staff and support personnel, and its current 
expansion program will allow for the doubling of these human 
resources to about 1,000.
    The Center began operating in 1989. Since then more than 
200 clinical research projects have been completed and hundreds 
of basic research projects have been performed. I would like to 
highlight a few of these clinical research projects that have 
important implications for nutrition and healthy aging.
    The first one is the Dietary Approaches to Stop 
Hypertension, the so-called DASH Study. DASH was a multicenter 
investigation of the effects of dietary patterns on blood 
pressure in adults with high normal to borderline hypertension. 
Drs. George Bray and David Harsha and other Pennington Center 
colleagues played a leadership role in this clinical trial. A 
total of 459 volunteers were randomized to one of three diets: 
typical American diet controlled on this site, fruit and 
vegetable diet, and fruit, vegetable plus low-fat diet. Results 
demonstrated reduction in blood pressure of those of the fruit 
and vegetable and low-fat diet in both the systolic and the 
diastolic pressure. For those with borderline hypertension, the 
reduction was 11 millimeters of mercury for systolic and more 
than 5 millimeters of mercury for diastolic.
    The DASH Diet parallels the dietary recommendations of the 
American Heart Association, the U.S. Department of Agriculture, 
the U.S. Department of Health and Human Services, and the 
National Cancer Institute and other health organizations, and 
these findings were applicable to both men and women, ethnic 
groups, normal tensive and hypertensive and younger and older 
adults as well.
    The Diabetes Prevention Program. The Diabetes Prevention 
Program is a multicenter NIH-funded clinical trial designed to 
determine whether the onset of diabetes can be delayed or 
totally prevented in high-risk individuals. This trial involves 
27 centers around the United States. Professors George Bray and 
Donna Ryan are the leading investigators at the Pennington 
Center.
    The first part of the trial finished in April 2001 when it 
became clear that one of the treatment arms was much more 
effective than the others. Among the 3,200 individuals in this 
study, those randomly assigned to the intensive lifestyle 
program of diet, exercise and behavioral strategies had a 58 
percent reduction in their rate of developing diabetes compared 
to individuals in the placebo group. A third group receiving 
the anti-diabetic drug metformin had an intermediate rate of 
conversion to diabetes. These are the data, 58 percent versus 
31 percent. The effectiveness of the lifestyle intervention in 
reducing the risk of diabetes was demonstrated in men and 
women, in all ethnic groups and in older and younger Americans.
    Regular physical activity translates into important health 
benefits as shown on this slide which applies to the risk of 
premature death here. It is also known that physical working 
capacity, an indicator of fitness, decreases with age. A low 
physical working capacity can easily compromise personal 
autonomy. For instance, the capacity to work at a rate 
equivalent to three to four times the level of energy expended 
at rest is typically seen as the minimal compatible with 
physical autonomy. Three to four times would be on the ``Y'' 
axis, the number of times that one can expend energy over the 
resting value. So when we reach above that level here, the 
personal autonomy is compromised. In a multicenter trial 
designed to investigate the genetic and molecular basis of the 
response to regular  exercise,  about 800  individuals  from 
200  families  of African-American and Caucasian ancestries 
were recruited and exercised regularly in the laboratory at 
four clinical centers for 5 months. Considerable individual 
differences were observed in the progress made under the 
influence of this physical activity program with some gaining a 
lot of increased tolerance to exercise by maximum oxygen update 
measurement. In others, none at all. However, these high 
responders aggregated in some families, and these others were 
in other families showing that there is an inherited propensity 
to benefit from the regular physical activity program.
    Thus, there is an inherited capacity to adapt to changes in 
environmental conditions such as those associated with regular 
physical activity or with dietary modifications as was shown in 
another study. Therefore, we would like to suggest that any 
research effort designed to define the optimal nutrient and 
energy intake associated with successful and health aging be 
undertaken from the comprehensive perspective, one that 
incorporates physical activity, medication, smoking status, 
socioeconomic circumstances, family history, as well as 
biological individuality as defined by the genes.
    Herbal Supplements and aging research at the Pennington 
Center. Many herbal supplements are touted to retard the aging 
process. Many of these herbal supplements attempt to raise the 
blood levels of substances to the levels associated with youth. 
There is no scientific evidence that this approach will retard 
aging, will increase longevity or improve the quality of life. 
The Pennington Center is addressing herbal supplements from a 
more scientific perspective.
    The focus of such research is on safety and efficacy. For 
instance, Drs. Frank Greenway and Steve Smith and their 
collaborators have been evaluating caffeine and ephedrine in 
overweight subjects. People taking caffeine and ephedrine lose 
an average of 7 percent of their body weight, but this is a 
loss which is totally composed of fat with no loss of muscle 
tissue. Currently, studies are in progress to study the effect 
of herbal caffeine and ephedrine on physical strength and 
endurance. If both strength and endurance were improved in 
addition to the loss of fat and a protection from muscle loss, 
then it will be desirable to extend these studies to elderly 
people.
    Caloric restriction. Caloric restriction prolongs life in 
several species. However, it is not established whether caloric 
restriction will extend life in humans. Caloric restriction 
results in loss of weight and tissues and lowers the rate of 
metabolism. One hypothesis is that caloric restriction lessens 
the oxidative damage of vital tissues by reducing energy flux 
and metabolism. Based on these various lines of evidence as was 
mentioned before, NIA requested application for studies on the 
role of caloric restrictions in humans, and the Pennington 
Center was one of the three centers selected nationally. 
Professor Eric Ravussin is the leading investigator on this 
research grant that benefits from the collaboration of 
Professors Andy Deutsch, Don Williamson, Steve Smith, Jim 
DeLany and other Pennington scientists. They will investigate 
whether the expected decline in metabolic rate that accompanies 
caloric restriction will be associated with reduced oxidated 
stress in tissues and risk factors for age-related metabolic 
diseases, including cardiovascular and type 2 diabetes.
    In addition, they will verify whether combining physical 
activity and caloric restriction to produce the same caloric 
deficit alters the changes caused by caloric restriction alone. 
Finally, the expression of genes involved in energy metabolism 
and oxidative stress that are known to be associated with 
longevity in lower organisms will also be assessed.
    One of the most accepted theories of aging is an increased 
release of free radicals, which are unstable molecules that 
wreak havoc on many substances including DNA. The end result is 
that individual cells may exhibit increased failure to 
inactivate free radicals and impair ability to repair DNA 
damage. One approach to slowing the aging process is to supply 
the body with ammunition against free radicals in the form of 
nutritional antioxidants. Numerous studies in other species 
indicate an increase in longevity is correlated with an 
organism's ability to effectively cope with free radical damage 
to DNA. The Pennington Center has one of the most active 
laboratories for measuring DNA damage in aging tissues, and 
Professor Andy Deutsch and his collaborators have devised 
technologies to measure specific DNA alterations that may be a 
consequence of the aging process, and they will be using it in 
the caloric restriction study.
    Finally, a word about our project on physical and cognitive 
capacity in non-agenarians. A multicenter study led by 
Professor Michael Jazwinski from Louisiana State University 
Health Science Center in New Orleans is investigating the role 
that metabolic factors play in the aging process. To this end, 
a population of Louisiana non-agenarians is being assembled. In 
the context of that study, scientists from the Pennington 
Center, Professor Ravussin and colleagues, are making a major 
contribution. They will be measuring resting metabolic rate, 
total energy expenditure, parameters of oxidative stress, blood 
protein profile and dietary habits in these non-agenarians. 
This study will generate a new hypothesis about mechanisms, 
metabolic pathways and other indicators of the aging process, 
and these are some of the participants in this particular 
project.
    We would like to take the opportunity provided to us today, 
Mr. Senator, to formulate a few recommendations for the Senate 
Special Committee on Aging. First, measures should be taken at 
all levels of government to ensure that elderly people have 
access to adequate nutrition. This is of particular relevance 
since the decrease in appetite typically seen in the elderly 
can easily result in nutritional deficiencies. Second, measures 
should be taken to ensure that elderly people have the 
opportunity to be physically active on a regular basis. This is 
also of importance as the level of fitness is probably the 
single most important determinant of autonomy in the elderly. 
Third, education programs targeting the elderly should be 
developed to communicate information on nutritional habits, 
physical activity and proper use of medication. Finally, we 
would like to recommend the establishment of a national center 
on nutrition and healthy aging. Its mission would be to improve 
the health of America's aging population through a focus on 
research but also on education. This mission would be achieved 
by: developing basic research programs to determine the 
molecular and cellular determinants of the adaptation to 
various dietary regimes and classes of nutrients including 
herbal and other dietary supplements in the elderly; clinical 
research programs designed to investigate the impact of various 
dietary practices and physical activity regimes on physical 
functions and cognitive abilities in older people, including 
potential interactions with medication and smoking; behavioral 
research programs to identify the optimal conditions to induce 
favorable behavioral changes in the elderly with the goal of 
reducing morbidity, the risk of premature death, and with the 
goal of retaining physical and cognitive abilities; integrated 
research programs to define the interactions among factors such 
as nutrition, physical activity, medication and genetic 
individuality; and finally, education and behavioral changes 
designed to apply the knowledge developed in the four 
proceeding programs to the elderly population.
    Thank you very much.
    [The prepared statement of Mr. Bouchard follows:]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Dr. Bouchard, thank you very much, and I 
would like to thank all of our Panel Members for some excellent 
information and suggestions, and information that I think will 
be very valuable to our Committee.
    Let me just start with a couple of questions. I do not 
know, maybe Dr. Butler, if you go into any bookstore in 
America, I mean, probably the largest section of publications 
are books on diet and longevity now, and you can find diets 
that advocate more fat, some that advocate less fat, some 
advocating high protein, some low protein. I believe the 
average person in this country becomes very confused about what 
is proper and what is healthy. If you add onto those books 
which many are very, very legitimate, all of the scam artists 
out there, we had hearings on food additives that are being 
sold that really do very little.
    One of our biggest witnesses who was running a 
multimillion-dollar--well, actually over a hundred million-
dollar--business came before our Committee and took the fifth 
amendment. He had been in prison before, and he was absolutely 
a total scam artist. Well, people are spending hundreds of 
millions of dollars and not really knowing where to go, what is 
right, what is wrong, what is good and what is bad. Any 
suggestions for the average American out there that wants to do 
what is right with regard to this?
    Dr. Butler. I do think we in science have the 
responsibility to be clearer to the public that science is an 
evolutionary process. It is so disappointing and discouraging 
and confusing when they hear one thing one day and one thing 
the next. But it is not because of anything other than the fact 
that the progress of knowledge develops in that way. I think 
you have heard a very good demonstration of that both from Dr. 
Starke-Reed and from Dr. Bouchard in terms of how science 
progresses. That is No. 1.
    No. 2, I think Dr. Patrick has been a beautiful example of 
the very simple fact that probably would be the single major 
thing one would hope to get out of these proliferation of 
various books that you referred to, and that is the very simple 
common sense message of physical activity and small portions of 
food. The cholesterol hypothesis, the role of certain fats and 
transacids in the creation of coronary heart disease is very 
well established through the wonderful work of the National 
Institutes of Health.
    Also, it is important to have a balanced diet in terms of 
fat and protein and vegetables and carbohydrates, particularly 
complex carbohydrates. But just not--the one thing mom was 
probably wrong about was clean up your plate and have a second 
helping. If we could just have small portions and physically 
remain active, that would be the single, simple message in a 
one-page book if we could get somebody to write it and get 
everybody to believe it.
    The Chairman. When scientists talk about the caloric 
restrictions, are we talking about just what, eating less, 
eating smarter, or what are we talking about when we are 
talking about the value of caloric restriction?
    Dr. Butler. Well, the original studies of Clive McKay 
really was an appropriate nutrient diet known at that time for 
rodents which were in 1935 and 1936, and it was not intended to 
be anything other than a modest diet as it were. Remarkably 
these animals live longer.
    Now there have been studies on spiders and all sorts of 
animals that demonstrate this truism. I think the message for 
the public is that, as I have already said, a modest diet and 
physical activity. It is energy in, energy out that is so 
impressive and so important. If we can find what the underlying 
mechanism is, whether it is the reduction of free radical 
damage or whatever the mechanism is that counts for the fact 
that we have this increase, by the way, of a vigorous, healthy 
life in these animals and delay of disease. It is not just 
living longer. It is living longer better. If we can find out 
what that is that is responsible and put that on the market, 
then we have a fully effective agent.
    The Chairman. Dr. Starke-Reed, do you have a comment on 
this about what are we talking about? I mean, is it just eating 
less, or is it eating smarter? I mean, what are the findings 
that we would be recommending at this time to the American 
public of what NIH knows about this?
    Dr. Starke-Reed. Well, I agree with what Dr. Butler said. I 
think if we go back to some of the early caloric restriction 
studies in rodents in particular where they altered the 
definitions of the diets or the composition of the diets, they 
were all nutritionally sound, but they altered it to where it 
was a little bit higher in protein or a little bit higher in 
carbohydrates or sugar. What they found from changing these 
diets in these various ways was that it really did not matter. 
If you were nutritionally sound, you had adequate nutrient and 
vitamin intake and you had lower calories, total calories, they 
all had positive effects.
    Adding physical activity is absolutely essential. I must 
mention, because we look at the problem today facing us, the 
tremendous obesity problem that we are looking at right now, 
and we are looking at children, very young children, developing 
type 2 diabetes, and we know that we are not being a very 
active population. Look at developing countries now. As they 
become more westernized, they are having a tremendous increase 
in their obesity problem as well.
    These things are not going to lead to healthy aging, so 
having activity, increasing activity, as well as having smart 
eating as we say, eating the appropriate things, having a 
nutritionally balanced diet but lowering the calories is what 
is going to be probably the best recommendation of all.
    The Chairman. I mean, and we are talking about the obesity 
problem in this country which obviously leads, as you say, to 
all types of very serious health problems. I mean, can you 
evaluate whether it is mostly because Americans just eat too 
much or we eat the wrong things? I mean, is it more we just eat 
too much of whatever we eat, or, you know, are we just eating 
the wrong type of foods containing harmful and fattening 
things? Does anybody want to comment?
    Dr. Butler. I would say both.
    Dr. Starke-Reed. Well, I would like to say that I do not 
think there is a definitive study, and as scientists, one would 
like to base answers on a definitive study. However, I really 
have to bring into this the physical activity because what is 
very clear that not only are we changing our dietary habits 
into very quick, fast, not the most healthy foods being put in 
front of us, but we are not doing activity the way we used to 
do it. We are a very, very sedentary population.
    The Chairman. Can either of you in the time left comment on 
the valuation between getting the nutrients that we need to 
live longer, better lives out of the natural foods we eat 
versus store up on the pills that are supposed to be providing 
us supplements and the various vitamins that some would 
probably try and sell you? ``You do not really need to eat 
food. Just come to our general nutrition store and buy 
everything in the aisles and take all the pills every day and 
you do not need to eat.'' I mean, are they valuable but they 
cannot obviously replace the normal intake? I guess I am 
talking about food supplements here. I mean, what are their 
value in general; how important are they; I mean, how much can 
they be utilized to reduce your caloric intake, or am I only 
going to eat a very little bit of actual food for breakfast, 
lunch and dinner, and I am going to supplement it with bottles 
full of vitamins, so I am going to come out OK? I mean, what is 
the correlation between the actual, normal regular food we eat 
and the utilization of supplements to help reach a balanced 
diet?
    Dr. Butler. Well, I do think there are supplements that 
have been demonstrated to be value. For example, folic acid 
which is now added to cereals and breads has been extremely 
useful in reducing spina bifida in newborns, and folic acid may 
also play a role in terms of an agent called homocystine in the 
body which is related to coronary heart disease. So I do 
think--and one of the wonderful things about the Pennington 
Center it seems to me is we have got to dramatically increase 
the amount of teaching to medical students about nutrition 
throughout the whole country so that they could give better 
advice.
    Certainly, the recent studies by the National Institute on 
Aging seem to be pointing to the importance of vitamin E as a 
preventative with respect to cognitive dysfunction and possibly 
Alheizmer's disease. So I think some of these ``pills'' are 
extremely useful, but as already implied or stated directly by 
Dr. Starke-Reed, it is so important that this become a 
consequence of actual science. For instance, if you take too 
much vitamin E or selenium, which may have their value, you can 
also wind up with internal bleeding so that there has to be--I 
guess Aristotle had it right in terms of moderation and common 
sense. But certainly the degree in which we can get more and 
more specific so it is not just a smaller amount of food but 
the right type of added nutrients, it would make a tremendous 
difference in the quality of life.
    But back to Dr. Starke-Reed's point too, only one State in 
the United States now has required daily physical activity, and 
that is the State of Illinois. I wish I could say that 
Louisiana and every one of our 50 States had physical activity 
for our children. But with computers and with television and 
with computer games, the chance of kids remaining physically 
active gets totally denied and left out of the equation of 
their daily round of activities.
    The Chairman. Well, that is really very, very helpful, I 
think, and very interesting. I was wanting to follow up on Dr. 
Bouchard's concepts for a national center of nutrition and 
healthy aging. I know, Dr. Butler, you were the person who 
really got the geriatric department started at Mount Sinai 
Hospital. Out of about 125 medical schools in this country, 
there are only three that have geriatric departments to teach 
doctors about specifically aging problems which is an 
absolutely incredible statement, and you started the one at 
Mount Sinai, but there are only three. With the vastly growing 
segment of our population, as Dr. Starke-Reed pointed out, 
people 85 and older, and 77 million baby boomers getting ready 
to move into this category of elderly, there will be a lot more 
people living a lot longer. Yet it seems that we are in a 
society that is not really focused in on the particular problem 
of geriatrics and aging and how we can hopefully get people to 
live longer and also better lives.
    Dr. Bouchard, you know, it kind of sounds like to me the 
concept of a national center on nutrition and healthy aging, 
just do it right here at the Pennington Center. [Applause.]
    Dr. Jenkins is nodding.
    Mr. Bouchard. I think this is an excellent suggestion. 
[Laughter.]
    The Chairman. I am throwing these softball questions.
    Mr. Bouchard. For many reasons, we have the current 
epidemic of obesity. But we also have now a wave of older 
citizens millions reaching 85 years and above, where about 50 
percent are frail and are losing their autonomy. Nutrition is a 
part of the latter. Physical activity is also a very strong 
part of it. The Pennington center has a reputation for working 
on both, integrating them into research together with the 
fundamental sciences. The goal is to understand the 
contribution the general mix with trying to of genetic 
individuality and the physiology and biochemistry. Such a 
center with a focus on nutrition would be important because we 
talk about nutrition and disease and aging, and growth or 
children for that matter, in terms of vitamins, macronutrients, 
carbohydrates, lipids and proteins. But that is just scratching 
the surface.
    There are thousands of molecules in food that we know 
nothing about yet, literally thousands. Some of them have been 
identified but we do not know their properties. So a center 
like the one proposed here would remove progressively the 
mystery surrounding these molecules. In addition to discovering 
and isolating them, we would test them in cell systems, in 
animal models, in engineered animals and then eventually in 
people to see if they have favorable or unfavorable effects 
when present in large quantities or in deficient levels.
    The Chairman. Dr. Starke-Reed, with the NIH, which is our 
premier government institute on health, how would a center 
interact with what you all are doing there or what Dr. Butler 
is doing at his center? Is that something that is compatible?
    Dr. Starke-Reed. I think most of the institutes within NIH 
have research centers which are dedicated to those specific 
problems and efforts. So that would fall very much in line with 
the way NIA does some of those. Can I----
    The Chairman. Dr. Patrick, I do not really have any--do you 
have another comment, Dr. Starke-Reed? I am sorry.
    Dr. Starke-Reed. The one thing that I was going to add to 
that is I think this is already something which has been in the 
minds of some of the staff at the NIA, having a specific 
research center, and that is because when you hear something 
new that has come out which is potentially beneficial for 
aging, it is nice to be able to take it to a place and compare 
it to a model system or in an organism or animal but with the 
same hands that have looked at the other things that we know 
are either good or not good for the aging process.
    It is very difficult to compare studies when they are done, 
even if done within a lab, using different species or different 
strains depending on whether it is one that is particularly 
good in aging or bad in aging, and then looking at the outcome. 
It is very difficult to evaluate whether this product really is 
having the effect on the aging process desire. Having a center 
where aging studies are already set up, given you confidence in 
the results that are generated you trust the reactions that you 
see in a particular organisms tested there, whether they are 
good or they are bad. It is very easy to compare it that way.
    The Chairman. I thank you for that. I hope that while you 
are here--I am sure you have done this before--but have a 
chance to visit the facilities here and Dr. Butler to see what 
they are doing.
    Mr. Patrick, really I am just so happy to have you here. I 
mean, and the reason we asked you, not only are you a doctor 
with great credentials in a different field, it is just to show 
when you practice this type of good, healthy type of living 
skills really that it does produce positive results, and, I 
mean, we have had so many people testify before the Aging 
Committee who are getting up in age, much older than you are. I 
mean, I had someone who was 92 years old who was actually still 
working in construction, and he actually worked out in the 
field. My question was how could he possibly continue to do 
that type of work in the field. He said, ``It is much easier 
than when I was 40.'' He said, ``When I was 40, I was out there 
with a shovel digging.'' He said, ``Now I am sitting in this 
machinery that is air conditioned, and I am just pulling 
back.'' He said, ``It is a lot easier than when I was 40 years 
old.'' He is 92.
    So, I mean, you are a good example of that, and we are very 
pleased that you are here. I want to thank all of our 
panelists. I think it has been very, very helpful to these 
people and helpful to the Senate Aging Committee. We are very 
dedicated to try and help bring about good, honest, solid, 
scientific research about this issue of aging and to try and 
separate the legitimate from the illegitimate. There is so much 
information that is just bogus, and so many people spend an 
unlimited amount of money trying to look for something that is 
a miracle, and it is very important that we eat healthy and 
understand the difference between what is good and what is 
right and what works as opposed to what does not. I think the 
Pennington Center is--I am very glad that NIH has saw fit to 
help with the grant here, and I know that Dr. Bouchard and 
everybody associated with it is going to do very, very good 
work.
    So we thank all of you for being with us, and that will 
conclude our Senate Aging Committee hearing. Thank you.
    [Whereupon, at 11:24 a.m., the committee was adjourned.]





                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
